*

22-5760

September 11, 2021

ANTHONY AURIEMMA
vs
BLOOMFIELD MUNICIPAL COURT, et al USCA3 No. 20-1819

Supreme Court. U.S.
FILED

MAY 2 1 282!
OFFICE OF THE CLERK

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

£iVcD
SEP 2 0 ?02!
s

I

supreme"CTOnnCrLF,Rc.K

QUESTIONS PRESENTED
Many various civil rights violations, inhumane living conditions while incarcerated,
illegal trials whether burying their own state investigators signed confessions /
evidences from trial and appeals and even proceeding trial without me present, after
stares witness missed 14 trials, while no tickets were ever produced during the entire
trial, even causing my own attorney Gerald Salutti to lose in fee arbitration - ethics
committee and get disbarred only to keep practicing illegally for 7 more years until
getting caught in unethical conduct with American Gangster Attorney Richie Roberts.
Illegal searches of property and cars while being called for a vandalism call and
nothing else. Bloomfield officers breaking my leg on my own property causing a 3/4
inch shorter and 15 degree deformity angle of my right leg with criminal trespassing
charges later dismissed when the Bloomfield Judge learned this occurred on my own
property. Illegal locks enforced by Bloomfield officers. Essex County Superior courts
siding with the illegal trial held in Bloomfield which proceeded without my presence
and disbarred my attorney.
Seaside Heights police and municipality refusing to make police reports of actual
incidents. Correctional Officers burying dozens of grievances only for the captain of
Ocean County Jail to sign my last grievance of all previous grievances being thrown
out and never answered after writing a letter to Internal Affairs.
The courts and other government institutions and employees were more interested in
creating revenue over truth and justice over a dozen times over the course 16 years.
Many inconsistencies and clear contradictions within the legal system on a case by
case system with only profit in mind over truth.

i)

TABLE OF CONTENTS
••

Question Presented....................................... .
II
« ••
hi
Table of Contents..............................................
Jurisdiction.......................................................
2
Opinion Below...................................................
2
Constitution and Statutory provisions involved
2
Statement of Case............................................ 2 to 3
Prior Proceedings............................................. .2 to 9
Factual Background.................... ..................... 2 to 9
Reason For Granting the Petition......................
The 3rd Circuit agreed to hear the case over the federal district court in NJ, who is
not only a court residing in the defendant, but would now only have an obvious bias
decision, but the 3rd Circuit Court let the decision be decided by throwing the
decision to be made right back into the hands of the court residing in the
defendant's state in the NJ Federal District Court of NJ
Conclusion....

Constitutional Provisions
Fourth Amendment
Fifth Amendment
Sixth Amendment
Seventh Amendment
Eighth Amendment
Eleventh Amendment
Fourteenth Amendment

IV

In The Supreme Court Of The United States
September 11, 2021
ANTHONY AURIEMMA
vs
BLOOMFIELD MUNICIPAL COURT, et al USCA3 No. 20-1819
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT

1

JURISDICTION
The court of appeal is issued its opinion denying Anthony Auriemma request for
appellate relief, who resides in the state of one of the defendants, after the 3rd Circuit
Court agreed to hear the case after the court of appeal in NewJersey decided to
dismiss it. Clear contradiction within the legal system.
OPINION BELOW
The opinion of the United States Court of Appeals for the Third Circuit is reported at
United States vs Auriemma.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves the 4th, 5th, 6th 7th, 8th, 11th and 14th Amendments of the
Constitution of The United States.
STATEMENTS OF THE CASE
Mr Anthony Auriemma was involved in illegal trials, trials with faulty equipment, trials
proceedings while he was in the hospital, later disbarring his attorney Gerald Saluti
who one of the defendants in case, the State of NJ allowed him to practice illegally for
seven more years until getting caught again.
Trial courts burying their own state investigators investigations of findings with signed
confessions/documents.
Extreme bodily injury and deformation at my own residence and being charged with
criminal trespassing, later dismissed when discovered during trial it was my own
residence.
Illegal lock outs enforced by the police.
Inhumane living conditions while incarcerated while dozens of grievances get thrown
out until Internal Affairs got involved.
Illegal searches of all my property while police arrived only for a vandalism call.
Chronic violations of 4th, 5th, 6th, 7th, 8th, 11th and 14th amendment rights violations
over 17 years straight in various counties of NJ, only looking for convictions, but
mostly revenue while protecting the outright illegal actions and trials of courts below
them resulting in lawyers being disbarred and Mr Anthony Auriemma suffering many

9l

years of pain and anguish with many punitive damages over the course of almost two
decades.

3

PETITION FOR WRIT OF CERTIORARI 09/11/2021
STATEMENTS OF THE CASE

Please except this petition for writ of certiorari in Lieu of a more formal petition
as lf the plaintiff am pro-se.
This suit involves many different courts, of many different proceedings, in many
different counties in New Jersey, so I shall include all here in chronological order.
PRIOR PROCEEDINGS AND FACTUAL BACKROUND

State of NJ (Bloomfield)
vs
Anthony Auriemma
Docket # A-005709-04T1
1. The states witness missed 14 trials for this case. Although Bloomfield denies
it, all original, mailed court appearance notices are enclosed.
DATE OF OFFENSE: 05/15/04
DATE OF SENTENCING: 11/10/04
This was a six month municipal trial.
2. Not one ticket was ever seen, recovered or produced, by the judge,
prosecutor, states witness (the officer), court or defendant throughout the
entire trial or appeal. A letter of missing tickets from Bloomfield is enclosed.
3. Bloomfield Municipal Court conducted trial without my presence. I was also
identified in the court by the states witness without me being present and was
found guilty, by trial, while I was in the hospital. Transcripts and hospital
records are enclosed.
An appeal hearing was held in Essex County Superior Court (M.A. 2004-14)
before Honorable Judge Michael L. Ravin on June 6th, 2005.
Here, the Appelate Court of Essex County agreed the states witness can miss as

H

many trials as he wants, there is no time limit the municipal court has to complete a
trial, no tickets are necessary for any trial hearing including the appeal, and the
court was well within the limits of the law and its jurisdiction to conduct trial without
me present, who also identified me in the court without my presence and found me
guilty, (transcripts enclosed)
Clearly, I was unable to defend myself properly, or at all, and the guilty
sentencing from Bloomfield was agreed upon as appropriate by the Appelate Court
of Essex County and upheld the guilty verdict as a proper finding with still, not one
ticket present for the Appelate Court hearing.
However the Fee Arbitration and Ethics Committee of Essex County beg to differ.
Anthony Auriemma
vs
Gerald Saluti
May 24, 2014
District Fee Arbitration Committee file #: VA-2014-004F
Determination of hearing panel held on June 16th, 2014 in favor of me the plaintiff
on all grounds.
Gerald Saluti were ordered to pay back my monies and never did and was no longer
allowed to practice law in the state of NJ.
Hearing, decision and case manager Jodi Rosenberg are enclosed.
Although disbarred in 2014, in 2019 Gerald Saluti got caught stealing from his
clients again, this time with American Gangster lawyer Richie Roberts in Essex
County and was disbarred again, after he was demanded to never practice law in
2014, after my determination hearing of him being unethical. New Jersey allowed
100's of illegal cases to be represented by Gerald Saluti, even after he was
disbarred, and we saw his "high caliber" ethics during my trial. One could only
imagine the countless other souls he damaged with nothing but the courts interest
in mind toward revenue rather than true justice.
AND, THAT IS THE TRUE PREMISE OF THIS ENTIRE CASE!
Back pedaling now, back to 2004, during the questionable trial in Bloomfield with
Mr Saluti, there was also an illegal lock out conducted against me in Bloomfield,
enforced by Bloomfield police, also on the same transcripts enclosed with the
Gerald Saluti trial.

r

April 18th, 2004, civil new filing judgment filed by Steven Lillian for $0.00
(#LT02735804). (enclosed)
Exactly 20 days after the filing with no court date I was forced out of my own
home by the Bloomfield Police and became homeless, which usually takes at least
90 days, and after a court hearing. None such was the case.
The Bloomfield Police then broke my leg at my own residence and charged me
with criminal trespassing. This is also on the docket # A005709-04T1 transcripts
from 11/10/2004. (enclosed) As there were no lockout and no documentation
proving it, the Bloomfield Municipal Court had no choice but to dismiss all charges
as I stood before the judge in a full leg cast from the incident, by one of his officers
at my own residence, now with a deformed leg, which is now three inches shorter.
And, was still refused back into my home and was told to never go near the property
again.
I was then homeless, with all my belongings on the front lawn hopelessly helpless
in a full leg cast on crutches, not even able to carry a glass of water, lost everything
and remained homeless on crutches for quite some time, as Bloomfield also took my
license through an illegal trial.
July 23rd, 2013, the Brick police were called to my residence at 350B Brick Blvd,
Brick NJ for a vandalism call to my Volvo. (Nothing Else!)
When the police arrived, I was handcuffed for three hours while five patrol cars at
the scene ransacked my cars and my apartment with no warrants, for no reason at
all for three hours. This was a call for my severely scratched car, by Eileen Sweeney
who works for the Ocean County Sheriff's Dept, witnessed by her and dozens
others, including my Mother, who cried endlessly at the scene.
There were no court proceedings of this blatant violation of civil rights, but a
recording of calls made that day to the station with the dispatch of cars to where
and why will prove its existence. The cuffs were removed and no charges were
made. And, all officers at the scene refused to make an incident report of the
vandalism to my car, and left.
Then, January 15th, 2014 Christopher Folgio drives a car registered to my name
up the curb in Seaside Heights N J. He signs two separate confessions with two
eyewitnesses testifying to the truth of his confessions.
Approximately January 22nd, 2014 all go to Seaside Heights Police Station to
make a report about the crime where we were all kicked out and told to go to a bank

6

and sign a notary to that effect and we did 2/10/2014. (enclosed)
On May 28th, 2014 the matter (case # 14-000556 001) was dismissed in Seaside
Heights NJ. (Enclosed)
The Superior Court of Ocean County then re-opened the case and made it clear
they will not accept the signed confession notarized from the bank. And made it
clear, if Christopher Foglio signs a confession with the Superior Court's State
investigator, they will dismiss the charges before the ink is dry. Although
Christopher Foglio then signed a second confession of guilt with the Ocean County
Superior Court's own appointed state investigator, that was not the case and trial
was held before Honorable Judge Blaney in Ocean County Superior Court on August
12th, 2015. Docket # blurred out due to old files, but enclosed in the supporting
documents.
I was not allowed to listen to any sidebar conversations to participate in my own
trial due to faulty equipment (enclosed) and was found guilty as the states witness,
the Seaside Heights officer, admits to witnessing absolutely nothing at all. My court
appointed attorney Ms Nayak, then informs me that the Seaside Heights police
actually dropped the ball when they kicked us all out two weeks after the incident
and did not adjust or make a report within 30 days of the incident. Now, because of
that, Christopher Foglio cannot be ticketed or charged after 30 days and the
Superior Court is now going to roll the dice on me with an illegal trial against me,
after a signed confession was admitted by the perpetrator of the crime, signed in
front of the Court's own state investigator and witnessed by three other witnesses
at the scene. The Court refused their own investigators findings of truth in the trial
and suppressed their own evidence/findings and did not allow the signed confession
in trial, or any court appeals, and buried the signed confession.
I then also lost appeal on this matter as the signed confessions by the states
witness was not allowed in trial or for the Supreme Court appeal.
I was then jailed December 29, 2015 after already doing six months in the ocean
county jail in an overcrowded jail, on the floor of a gym with 48 other inmates, with
one sink, one toilet, and no shower. This too is in my suit as another complaint of
cruel and unusual punishment with many other civil rights violations with over one
dozen grievances, all illegally thrown out by officers, (enclosed)
Finally a signed grievance complaint dated 7/24/2016 was signed by captain Kelly
of the Ocean County Jail with a complaint of all civil rights violations and the
disappearance of dozens of grievances, (enclosed)

7

9/09/2020 case: 20-1819
United States court of appeals for the third circuit order:
BRIEFING SCHEDULE SHALL ISSUE.
The third circuit dismisses the federal court in NJ's dismissal and upholds the case
with good right after reading plaintiffs reasons. But, later throws this case back to
the federal court in N J, who not only previously dismissed this case, but is also a
defendant who then dismissed the case again with obvious bias, ultimately bringing
it before you the highest and most honorable court in the land The Supreme Court
Of The United States Of America.
09/23/2020 United States Court of Appeals No. 20-1819
District Court No. 2-20-CV-02612
BRIEFING AND SCHEDULE ORDER
Plaintiff (me) must file and serve brief for Appellants on or before 11/20/2020 and
I did and made the deadline again. The case remains open.
February 4th, 2021 the United States Court of Appeals in Philadelphia case no.
20-18-19
District Court Case No. 2-20-cv-02612 ables me to file a petition of rehearing and I
do, making the deadline again.
March 12, 2021 my petition for rehearing was denied by the court and with the
case numbers immediately above. Judge Thomas L Ambro.
I now find myself before the highest court in the land begging for all Honorable
Supreme Court Justices to keep this case open and please hear it.
After all, this case did not make it this far by a pro se plaintiff, who is completely
ignorant to the law, by chance.
This case must be heard as I now beg the Supreme Court Of The Untied States Of
America to just thumb through it and read the supporting briefs. It will be worth
your 15 minutes to properly decide on how this case by an ignorant pro-se plaintiff
ever found it's way in your Honorable hands today.
If you just read my petition for rehearing and some of my briefs placed
immediately after this petition, in this large stack of documents, you would be

8

compelled to keep this case open in utter disbelief that any of this is actually true
and done to a National Deans List, Honors, college graduate.
And, there are numerous other questionable matters included in the supporting
documents that support why this case is before your court now, that are not in my
writ of certiorari here.
Here are all concise statements of the case, with dates, docket numbers and
decisions, on all grounds in which jurisdiction is certainly invoked and the order
denying rehearing must be appended.
CONCLUSION

For the above various reasons with all it's supporting documents over the years, the
petition for Writ of Certiorari should be granted.

Sincerely,
Anthony Auriemma
09/11/2021

<7

